Report No. DODIG-2012-069                 April 2, 2012




    Action is Needed to Improve the Completeness and
            Accuracy of DEERS Beneficiary Data
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      DoD Office of Inspector General
                      Office of the Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CFR                           Code of Federal Regulations
DEERS                         Defense Enrollment Eligibility Reporting System
DHRA                          Defense Human Resources Activity
DMDC                          Defense Manpower Data Center
ID                            Identification Card
RAPIDS                        Real-time Automated Personnel Identification System
SSA                           Social Security Administration
SSN                           Social Security Number
                                    INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500



                                                                                       April 2, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
               DIRECTOR, DEFENSE HUMAN RESOURCES ACTIVITY
               DIRECTOR, DEFENSE MANPOWER DATA CENTER

SUBJECT: Action Is Needed to Improve the Completeness and Accuracy
         of DEERS Beneficiary Data (Report No. DODIG-2012-069)

We are providing this report for your information and use. The Defense Manpower Data Center
lacked controls to identify when Real-time Automated Personnel Identification System personnel
failed to maintain supporting documentation. Therefore, DoD lacked certainty that only eligible
beneficiaries were enrolled in the Defense Enrollment Eligibility Reporting System and issued
military identification cards. The unsupported and inaccurate data adversely affected the
integrity of the DoD process for issuing military identification cards. Further, ineligible
beneficiaries could obtain unauthorized access to health care benefits and, conceivably, to
Government facilities and other privileges.

We considered comments from the Defense Human Resources Activity and the Defense
Manpower Data Center when preparing this final report. Comments on the draft of this report
conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues.
Therefore we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905.




                                              Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                               for Auditing
   Report No. DODIG-2012-069 (Project No. D2010-D000FR-0149.000)                           April 2, 2012


                     Results in Brief: Action Is Needed to
                     Improve the Completeness and
                     Accuracy of DEERS Beneficiary Data

                                                         documentation existed and to validate that
What We Did                                              DEERS beneficiary data were accurate.
We assessed the completeness and accuracy of
beneficiary data contained in the Defense                As a result, DoD lacked certainty that only
Enrollment Eligibility Reporting System                  eligible beneficiaries were enrolled in DEERS and
(DEERS). We selected a statistical sample of             received military identification cards (IDs).
DEERS beneficiaries and compared the sample              Specifically, RAPIDS personnel inappropriately
data to available supporting documentation.              issued military IDs without obtaining or
                                                         maintaining documentation that supported
                                                         DEERS records. Additionally, the extent of the
What We Found                                            unsupported and inaccurate data adversely
DEERS beneficiary supporting documentation               affected the integrity of the DoD process for
was not complete, and DEERS data were not                issuing military IDs. Action to improve DEERS
always accurate. Specifically, of the 9.4 million        data is needed, as evidenced by the
Uniformed Service beneficiary records, DEERS             2,495 instances, identified by the TRICARE
supporting documentation did not adequately:             Management Activity, of ineligible beneficiaries
     •	 substantiate the identity of 2.1 million         who obtained unauthorized health care benefits.
        beneficiaries;*
     •	 demonstrate the eligibility of 2.8 million       What We Recommend
        beneficiaries;*                                  The Director, Defense Human Resources Activity
     •	 support between one and five critical            (DHRA), should issue policy requiring RAPIDS
        data fields, such as name and date of            personnel to scan and store eligibility
        birth, associated with 5.7 million               documentation. In addition, the Director, DMDC
        beneficiaries;* and                              should implement additional procedures to
     •	 contain date of birth, gender, name, or          validate that DEERS supporting documentation
        relationship records of                          exists and that the DEERS data are accurate.
        199,680 beneficiaries.*
                                                         Management Comments and
This occurred because the Defense Manpower               Our Response
Data Center (DMDC) lacked procedures to
identify when Real-time Automated Personnel              The Director, DHRA and DMDC, agreed with our
Identification System (RAPIDS) personnel did             recommendations. Please see the
not scan and store DEERS beneficiary identity            recommendations table on the back of this page.
documentation, and DoD policy was vague on
                                                         *The number of beneficiaries is based on statistical
requiring RAPIDS personnel to scan and store             sampling projections. See Appendix B for details on the
sufficient documentation to verify DEERS                 statistical sampling methodology and results.
beneficiary eligibility. Further, DMDC lacked
procedures to verify that supporting


                                                     i
Report No. DODIG-2012-069 (Project No. D2010-D000FR-0149.000)          April 2, 2012

Recommendations Table

        Management                 Recommendations                No Additional
                                  Requiring Comment           Comments Required
Director, Defense Human                                    1.a. and 1.b.
Resources Activity

Director, Defense Manpower                                 2.a., 2.b.(1), 2.b.(2), and
Data Center                                                2.b.(3)




                                         ii
Table of Contents
Introduction	                                                                   1


      Audit Objective                                                           1

      Defense Enrollment Eligibility Reporting System                           1

      Real-time Automated Personnel Identification System                       3

      Issuing Military Identification Cards                                     3

      Improvements Needed in Internal Controls Over DEERS Beneficiary Data      4


Finding. Improvements Needed in the Completeness and Accuracy of DEERS

Beneficiary Data                                                                6


      DoD Identity Policy for DEERS Beneficiary Data                            6

      Supporting Documentation for Beneficiary Identity Needed Improvement      7

      Supporting Documentation for Beneficiary Eligibility Needed Improvement   9

      Supporting Documentation for Beneficiary Critical Data Fields Needed

          Improvement                                                           10 

      Review of Supporting Documentation Needed to Improve the Accuracy of

          Beneficiary Critical Data Fields                                      13 

      Integrity of DoD Military ID Issuance Process and Need

          for More Accountability                                               14 

      Conclusion                                                                16 

      Recommendations, Management Comments, and Our Response                    17 


Appendices

      A. 	Scope and Methodology                                              21 

             Use of Computer-Processed Data                                  22 

             Use of Technical Assistance                                     23 

      B. 	Use of Technical Assistance                                        24 

             Population                                                      24 

             Sample Plan                                                     24 

             Results of Analysis                                             24 

      C. 	DoD Office of Inspector General Memorandum on the Accuracy of DEERS

          Beneficiary Address Information and DoD Comments                   27 

             Assistant Secretary of Defense for Health Affairs Comments      32 

             Defense Manpower Data Center Comments                           33 


Management Comments

      Defense Human Resources Activity and Defense Manpower Data Center

            Consolidated Comments                                               35 

Introduction
Audit Objective
The audit objective was to assess the completeness and accuracy of beneficiary data contained in
the Defense Enrollment Eligibility Reporting System (DEERS) that DoD used to estimate health
care liabilities reported on DoD financial statements. For the purposes of our audit, we
considered beneficiary data as the DEERS record and the associated supporting documentation.

The Defense Manpower Data Center (DMDC) lacked controls to identify when Real-time
Automated Personnel Identification System (RAPIDS) personnel failed to maintain supporting
documentation; therefore, a large part of the sample beneficiary records lacked the supporting
documentation necessary to verify the completeness and accuracy of identity, eligibility, and
critical data fields. We assessed the completeness and accuracy of DEERS beneficiary data and
the associated supporting documentation, but did not determine the impact on the DoD financial
statements. The DoD Office of the Actuary uses DEERS data to calculate future health care
liabilities.

To test the completeness and accuracy of the DEERS beneficiary data, we identified a statistical
sample of 375 beneficiaries and reviewed the DEERS information and the associated supporting
documentation for beneficiary identity, eligibility, and certain critical data fields. See
Appendix A for a discussion of the scope and methodology and Appendix B for details on the
statistical sampling methodology and results.

Defense Enrollment Eligibility Reporting System
DEERS is a worldwide, computerized database that includes Uniformed Service members
(sponsors), their family members, and others who are eligible for military benefits. All sponsors
automatically obtain registration into DEERS. DEERS contains one record for each Uniformed
Service member, whether on active duty for more than 30 days, retired, or in the Reserves or
National Guard. The Uniformed Services are responsible for updating information as Service
members’ military status changes. DEERS also maintains a record for each family member,
regardless of the family member’s eligibility for benefits. Individual Service personnel are
responsible for enrolling their dependents in DEERS at RAPIDS locations and for notifying
DEERS when an eligible dependent’s status changes.

DMDC is the responsible agency for technical and acquisition management as well as the
functional management of the DEERS program. The Defense Human Resources Activity
(DHRA) develops policies and procedures for DMDC. Figure 1 shows DMDC’s place in the
organizational structure.




                                                1

                              Figure 1. DMDC Organizational Structure


                                        Under Secretary of Defense
                                        (Personnel and Readiness)

                                           Principal Staff Assistant 

                                               for the DEERS

                                           and RAPIDS Programs



                                   Defense Human Resources Activity

                                     Develops policies and procedures
                                       for the functional requirements
                                   of the DEERS and RAPIDS Programs




                                                     DMDC

                                        Executive Agent for RAPIDS

                              Provides technical, acquisition, and functional
                                  management of the DEERS Program

Source: DoD-I 1000.13, “Identification (ID) Cards for Members of the Uniformed Services, Their Dependents, and
Other Eligible Individuals,” May 17, 2011; Air Force Instruction 36-3026, “Identification Cards for Members of the
Uniformed Services, Their Eligible Family Members, and Other Eligible Personnel,” June 17, 2009 (as amended
November 2, 2009); and DoD-I 1341.2, “Defense Enrollment Eligibility Reporting System (DEERS)
Procedures,” March 19, 1999.

DEERS tracks DoD personnel and their eligibility for DoD benefits. DEERS determines
benefits based on the beneficiary’s demographic data and status in DEERS. Tracking DoD
personnel and eligibility for DoD health care benefits not only ensures that beneficiaries
correctly receive benefits, but it also helps reduce fraudulent access and abuse of DoD benefits.
In addition, it ensures that all beneficiaries receive the benefits to which they are entitled.

DoD administers health care benefits for over 9 million beneficiaries through the TRICARE
program. 1 DEERS contains Service-related eligibility and demographic data used to determine


1
  The TRICARE program serves active duty Service members, National Guard and Reserve members, retirees, their
families, survivors, and certain former spouses worldwide by bringing together the health care resources of the
Uniformed Services and civilian health care professionals, institutions, pharmacies and suppliers to provide access
to health care services.



                                                         2

eligibility for military benefits, including health care, commissary, and exchange privileges for
all Service members, retirees, and their family members. To perform the actuarial liability
estimate valuation, the DoD Office of the Actuary must identify and obtain demographic
information from the entire DEERS population eligible for benefits.

Real-time Automated Personnel Identification System
RAPIDS consists of software and hardware components used to update DEERS and issue
military identification cards (IDs). The DEERS/RAPIDS Project Offices are under the direction
of each Military Service. The project offices assist each other in verifying certain categories of
eligible persons, even if they belong to another parent Service. With online network
communication to DEERS using RAPIDS, project office personnel assist beneficiaries in
receiving benefits and issue them military IDs. In 1997, RAPIDS introduced a more secure
method for producing automated, machine-readable military IDs. RAPIDS also began using a
rules-based methodology that automated entitlement policy so that the system would determine
the correct benefits and entitlements for each beneficiary. The RAPIDS methodology used
information provided to it by DEERS and RAPIDS personnel.

RAPIDS workstations and host servers communicate online to DEERS. RAPIDS allows project
office personnel to query, modify, and obtain online access to information in the DEERS
database. With these capabilities, RAPIDS personnel can update information in the DEERS
database. The RAPIDS transactions maintain the validity and currency of the DEERS database.
Additionally, RAPIDS assists and guides personnel through the process of verifying the claimed
identity of individuals seeking access to health benefits, Government facilities, and other
privileges. RAPIDS personnel include verifying officials, super verifying officials, and site
security managers.

DMDC policy states that the main function of a RAPIDS verifying official is to ensure that
Uniformed Service members, their family members, and other eligible beneficiaries receive the
DoD benefits to which they are entitled. With the added responsibility of issuing military IDs,
the verifying official plays an important role in ensuring that only eligible beneficiaries obtain
DoD health care and other benefits. No matter what type of military ID or privilege card the
verifying official issues, the card recipient may gain access to Government facilities and
privileges throughout the world.

Issuing Military Identification Cards
DoD provides sponsors with a distinct military ID identifying each beneficiary as active duty,
Guard, Reserve, or retired members and authorizing them to receive DoD benefits and privileges.
DoD also authorizes a distinct military ID card to eligible family members entitled to receive
DoD benefits.

Military IDs may have a red, tan, green, or blue background. The colors distinguish
classifications. Red is used for Reserve retired sponsors or Guard and Reserve family members.
Tan is used for active duty family members. Green is used for individual ready reservists and
inactive National Guard. Blue is used for retirees. The card allows the recipient physical access
into facilities, but not access to DoD systems. Figure 2 is an example of a military ID issued to a
DoD Guard or Reserve family member.


                                                 3

                          Figure 2. Military ID Issued to DoD Guard
                                 or Reserve Family Member




               Source: DD Form 1173-1 RAPIDS 7.5 User Guide, Version 1.2, August 2010.

Improvements Needed in Internal Controls Over DEERS
Beneficiary Data
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, implements DoD policy, pursuant to Sections 1101, 3512, and 7501 of Title 31, United
States Code, that a manager’s internal control program be established to review, assess, and
report on the effectiveness of internal controls in DoD. We identified internal control
weaknesses associated with the completeness and accuracy of DEERS records and the associated
supporting documentation. DMDC did not have controls to identify when RAPIDS verifying
officials failed to scan and store DEERS beneficiary documentation and identify when
documentation failed to ensure military IDs were issued only to current and eligible DoD Service
members and their families.



                                                 4

Additionally, DoD policies were vague and did not specifically require RAPIDS personnel to
maintain eligibility documentation for all beneficiaries in DEERS. We will provide a copy of the
report to the senior official responsible for internal controls at DMDC.




                                               5

Finding. Improvements Needed in the
Completeness and Accuracy of DEERS
Beneficiary Data
DEERS beneficiary supporting documentation was not complete, and DEERS data were not
always accurate. Specifically, of the 9.4 million Uniformed Service beneficiary records, DEERS
supporting documentation did not adequately:

     •	   substantiate the identity of 2.1 million beneficiaries, 2
     •	   demonstrate the eligibility of 2.8 million beneficiaries,
     •	   support one or more critical data fields 3 for 5.7 million beneficiaries, and
     •	   contain the date of birth, gender, name, or relationship critical data fields of

          199,680 beneficiaries. 


The data were incomplete or inaccurate because DMDC did not have procedures to identify
when RAPIDS personnel did not scan and store DEERS beneficiary identity documentation. In
addition, DoD policy was vague and did not specifically require RAPIDS personnel to scan and
store sufficient documentation to verify eligibility for all DEERS beneficiaries. Further, the lack
of supporting documentation and discrepancies occurred because DMDC did not have
procedures to verify that supporting documentation existed and to validate that DEERS
beneficiary data were accurate.

As a result, DoD lacked certainty that only eligible beneficiaries were enrolled in DEERS and
received military IDs. Additionally, the extent of the unsupported and inaccurate data adversely
affected the integrity of the DoD process for issuing military IDs.

Without improvement in obtaining and maintaining the DEERS supporting documentation,
RAPIDS personnel could continue to issue military IDs without proper documentation, and
cardholders could obtain unauthorized access to health benefits, Government facilities, and other
privileges. In addition, medical payments could be delayed. Action to improve DEERS data is
needed, as evidenced by the 2,495 instances, identified for FY 2007 through FY 2010 by
TRICARE Management Activity, of ineligible beneficiaries who obtained unauthorized benefits.

DoD Identity Policy for DEERS Beneficiary Data
DoD issued guidance to improve the completeness and accuracy of DEERS beneficiary identity
data. Specifically, DMDC issued the RAPIDS 7.2 User Guide in May 2007, which requires
RAPIDS verifying officials to capture primary and secondary proofs of identity documents.
Primary documents include a valid State or Federal Government picture ID. All documents used


2
  The number of beneficiaries is based on statistical sampling projections. (See Appendix B for details on the
statistical sampling methodology and results.)
3
  We compared the personal identifier, date of birth, gender, name, and relationship to sponsor critical data fields in
DEERS to the data in the personnel file for each sponsor and to the data archived in RAPIDS for spouses and
dependents.


                                                           6

to verify identity must be original or certified true copies. RAPIDS verifying officials are
required to inspect identity documents for authenticity as well as scan them for storage
in RAPIDS. 4

DMDC personnel explained that the scanning requirement was not moved into production until
December 8, 2007. However, not all RAPIDS sites were fully operational by this time. DMDC
personnel stated that some of the RAPIDS sites had not obtained the proper software and
equipment necessary for scanning capabilities by the end of 2007. In fact, DMDC personnel
indicated it took some locations until March 2010 to acquire this capability.

In December 2008, the Under Secretary of Defense for Personnel and Readiness issued DoD
Directive-Type Memorandum 08-003, “Next Generation Common Access Card (CAC)
Implementation Guidance,” which explains the identity verification process before issuance of a
military ID. Specifically, the memorandum mirrors the requirement of the RAPIDS 7.2 User
Guide that all beneficiaries present two forms of identification to verify a claimed identity.
RAPIDS issuing activities are also required to issue military IDs based on guidance contained in
Air Force Instruction 36-3026, “Identification Cards for Members of the Uniformed Services,
Their Eligible Family Members, and Other Eligible Personnel,” June 17, 2009 (as amended
November 2, 2009). Known as the Joint Inter-Service Instruction 36-3026, it supports DEERS
and RAPIDS for the Army, Navy, Air Force, Marine Corps, National Guard, and U.S. Armed
Forces Reserve.

Supporting Documentation for Beneficiary Identity
Needed Improvement
DEERS beneficiary supporting documentation was not complete. Of the 9.4 million Uniformed
Service beneficiaries, DEERS supporting documentation was not adequate to verify the identity
of 2.1 million beneficiaries in DEERS. These beneficiary records did not contain the two forms
of identification required by policy to verify beneficiary identity. The lack of supporting
documentation occurred because DMDC did not have procedures to identify when RAPIDS
personnel did not scan and store DEERS beneficiary identity documentation.

Examples of adequate supporting documentation that
                                                                      DEERS supporting
verify beneficiary identity include, but are not limited
                                                               documentation was not adequate
to, a driver’s license, U.S. passport, permanent resident
                                                                    to verify the identity of
card, school ID with photograph, voter registration
                                                                  2.1 million beneficiaries in
card, and U.S. military ID or draft record. For persons
                                                                            DEERS.
under age 18 who are unable to present one of these

documents, a school record or report card; clinic, 

doctor, or hospital record; or day care or nursery school record are acceptable forms of identity.





4
 DMDC’s updated RAPIDS 7.5 User Guide, August 2010, still requires RAPIDS verifying officials to obtain and
scan identity documentation before issuing military IDs.


                                                      7

Enforcement of Current Identity Documentation Policy Needed
DMDC needed to establish controls to identify when RAPIDS personnel failed to scan and store
DEERS beneficiary identity documentation as required by policy. DMDC oversight was not
sufficient to identify and correct instances in which RAPIDS verifying officials bypassed the
                                            DoD policy to validate and capture beneficiary identity
        RAPIDS verifying officials          documentation. Specifically, RAPIDS verifying
         scanned blank document             officials scanned blank document placeholders or
    placeholders or scanned a single        scanned a single document and used it for multiple
    document and used it for multiple       documentation tabs. The RAPIDS 7.5 User Guide
           documentation tabs.              allows verifying officials to waive the requirement to
                                            obtain and maintain beneficiary supporting
documentation, but only in certain circumstances. Specifically, the RAPIDS 7.5 User Guide
states that:

       RAPIDS allows for the skip capture of primary and secondary proof of identity documentation
       steps when documentation is not available. This process should only be used in extreme
       circumstances of ID card reissuance when all of the customer’s IDs have been lost or stolen
       and cannot be replaced—not as a convenience if the customer did not bring appropriate
       documentation.

DEERS records did not contain sufficient identity supporting documentation and showed that
RAPIDS verifying officials did not adhere to the guidance. For example, the RAPIDS
beneficiary record of a Navy spouse contained two blank document placeholders. The RAPIDS
record showed that a military ID and driver’s license were scanned into RAPIDS, but the file
was blank. Whether the RAPIDS document scanner failed to capture the image or the verifying
official bypassed DEERS identity requirements is unclear. This example revealed
undocumented information stored in RAPIDS, which updates DEERS. It created a discrepancy
between the two systems and allowed eligibility determinations to be made with no supporting
documentation.

In addition, some RAPIDS records contained a single document placed under multiple document
tabs. The same document should not be used as support for multiple document placeholders.
For example, one of these records had a military ID scanned into RAPIDS four times. The
military ID was labeled twice as a driver’s license, once as a sponsor ID, and once as a letter
from the school registrar.

Beneficiary identity documentation can support four of the five DEERS critical data fields that
we reviewed; therefore, increased compliance with current policy will improve the supporting
documentation for both the beneficiary identity and the personal identifier, date of birth, gender,
and name critical data fields. For example, if a beneficiary has two forms of identification
(driver’s license and Social Security card) scanned and stored in RAPIDS, the two would support
beneficiary identity as well as the personal identifier, date of birth, gender, and name critical data
fields.




                                                     8

Additional Procedures for Identity Documentation Needed
DMDC did not have procedures to verify that documentation supporting identity existed.
Procedures to identify when RAPIDS personnel failed to scan and store supporting
documentation would help verify beneficiary identity. The significant number of beneficiaries
whose documentation supporting identity was inadequate demonstrated a need for additional
oversight by DMDC. In addition, to enforce current policy for validating and capturing
beneficiary identity documentation, DMDC should provide training to RAPIDS officials on
documentation requirements and consider suspending RAPIDS access for those that fail to
follow policy.

Supporting Documentation for Beneficiary Eligibility
Needed Improvement
Documentation supporting DEERS beneficiary eligibility was incomplete. Of the 9.4 million
Uniformed Service beneficiaries, DEERS supporting documentation was not adequate to verify
the eligibility of 2.8 million beneficiaries. The lack
of supporting documentation occurred because DoD                     DEERS supporting
policy did not require RAPIDS personnel to retain             documentation was not adequate
documentation to verify eligibility for all                       to verify the eligibility of
beneficiaries and DMDC needed to establish                        2.8 million beneficiaries.
procedures that included verification of DEERS
supporting documentation. Examples of adequate supporting documentation to verify the
beneficiary eligibility include, but are not limited to, a marriage certificate, birth certificate,
adoption decree, agency placement document, favorable dependency determination, medical
sufficiency statement, legal decree, and letter from the school registrar.

From our review of documentation supporting eligibility, we identified beneficiaries who were
ineligible for benefits. For example, one was an Army sponsor who had been discharged
following a court martial proceeding. DEERS erroneously indicated that his status was “active.”
In this instance, Army personnel indicated that the soldier was no longer on active duty. The
Uniformed Services routinely provide updated information as Service members’ military status
changes. In another example, an ineligible beneficiary was an Army spouse that DEERS showed
as eligible for benefits as of September 30, 2009. However, DMDC personnel indicated that a
divorce occurred earlier in the fiscal year and was not updated in DEERS until January 2010.
Individual service personnel are responsible for notifying DEERS when an eligible dependent’s
status changes. We requested that DoD provide medical claim histories for the two examples to
determine whether the beneficiaries improperly received health care services when they were not
eligible. DoD records showed that DoD provided payments for health care services totaling
$456 after the date of the divorce.

The two examples showed that DEERS contained ineligible beneficiaries. Additionally, the data
indicated that of the 9.4 million Uniformed Service beneficiaries, 49,920 beneficiaries 5 may be



5
  The number of beneficiaries is based on statistical sampling projections. See Appendix B for details on the
statistical sampling methodology and results.


                                                         9

ineligible for health care benefits. DMDC needs to take the actions recommended in this report
to address the risk of ineligible beneficiaries obtaining unauthorized benefits.

Eligibility Policy Requirements Needed
The lack of documentation supporting eligibility occurred because DoD policy was vague and
did not specifically require RAPIDS personnel to scan and store sufficient documentation to
verify eligibility for all DEERS beneficiaries. Current DoD policy was inconsistent in requiring
RAPIDS verifying officials to maintain eligibility records for dependents. Specifically, the
RAPIDS 7.5 User Guide discussed scanning eligibility documents for newborns; however, the
Joint Inter-Service Instruction 36-3026 did not require RAPIDS verifying officials to scan
eligibility documentation. The Joint Inter-Service Instruction 36-3026 states that a verifying
official “does not need basic documentation when the DEERS database can verify eligibility.
However, the identity must be verified.”

To establish eligibility for sponsor dependents, RAPIDS verifying officials normally review
marriage certificates, adoption decrees, and birth certificates. These eligibility documents
validate the legal relationship between the sponsor and dependent, which authorizes DoD
benefits. DoD policy should specifically require that these types of supporting documentation be
scanned and stored for all beneficiaries so that DEERS records are adequately supported.
Furthermore, having specific policy that requires RAPIDS personnel to scan and store
beneficiary eligibility documentation would ensure that the relationship to sponsor was fully
supported.

In discussions with DHRA and DMDC personnel, we learned that the requirement to scan and
store eligibility documentation was being considered for inclusion in new policies currently in
draft. DMDC should continue to coordinate with DHRA for issuing new policy that requires
RAPIDS personnel to scan and store documentation that supports eligibility. Additionally,
DMDC should develop a plan to train RAPIDS personnel on the new policy and develop a
process to measure the improvement in data quality.

Additional Procedures for Eligibility Documentation Needed
DMDC did not have procedures to verify that documentation supporting eligibility existed. The
number of beneficiaries who lacked adequate documentation supporting eligibility was
significant and demonstrated a need for additional oversight by DMDC. In addition to revised
DoD policy and training on the policy that requires RAPIDS personnel to obtain eligibility
documentation, procedures to identify when RAPIDS personnel fail to scan and store supporting
documentation would help verify beneficiary eligibility.

Supporting Documentation for Beneficiary Critical Data
Fields Needed Improvement
DEERS beneficiary supporting documentation was             DEERS did not contain support
not complete. Of the 9.4 million Uniformed Service          for one or more critical data
beneficiary records, DEERS did not contain support              fields for 5.7 million
for one or more critical data fields for 5.7 million                beneficiaries.
beneficiaries. This occurred because DMDC did not


                                               10

have procedures to verify that documentation supporting the critical data fields existed. For the
purpose of our audit, we identified as critical data fields a beneficiary’s personal identifier, 6 date
of birth, gender, name, and relationship to sponsor. We determined that these fields were critical
to establishing beneficiary identity and eligibility. We also considered a beneficiary’s mailing
address as a critical data field. Table 1 illustrates that DEERS lacked supporting documentation
for between 39.4 percent and 53.7 percent of critical data fields.

                    Table 1. Summary of Undocumented Critical Data Fields
                                   Beneficiaries
     Undocumented                                                  Examples of
                             Number ∗         Percent
        Data Field                                               Documentation
                                                      Social Security card, driver’s
    Personal Identifier      4,367,984          46.5
                                                      license
                                                      Birth certificate, adoption agency
    Date of Birth            4,043,506          43.1
                                                      placement document
                                                      Birth certificate, driver’s license,
    Gender                   3,818,866          40.7
                                                      U.S. passport
                                                      Marriage certificate, birth
    Name                     3,694,067          39.4  certificate, adoption decree,
                                                      driver’s license, U.S. passport
                                                      Marriage certificate, birth
    Relationship to
                             5,041,902          53.7  certificate, adoption decree,
    Sponsor
                                                      agency placement document
     ∗
      The number of beneficiaries is based on statistical sampling projections. See Appendix B for details on the
     statistical sampling methodology and results.

Requirement to Provide Social Security Number
According to the Code of Federal Regulations (CFR), title 32, volume 2, section 220.9
(32 CFR § 220.9), beneficiaries are required to disclose Social Security numbers (SSNs) to
RAPIDS personnel. Although the CFR requires beneficiaries to disclose SSNs, DHRA and
DMDC officials indicated that RAPIDS verifying officials need not obtain SSNs for all
dependents for them to receive benefits and other privileges. Despite the CFR guidance, DHRA
and DMDC further indicated that mandatory disclosure of the dependent’s SSN was not an
industry practice. DHRA and DMDC asserted that the CFR is not specific enough to deny
eligibility for dependents if they do not disclose a valid SSN. However, the Joint-Service
Instruction 36-3026 suggested that failure to disclose an SSN when enrolling or updating
DEERS would result in the loss of health care benefits in Military Treatment Facilities. Instead,
DEERS allows beneficiaries to have a temporary ID for an extended period of time.




6
  A personal identifier can be an SSN, individual tax identification number, foreign identification number, or
temporary identification number.



                                                         11

We identified beneficiaries in DEERS with temporary IDs past their three 90-day grace periods,
as outlined in the RAPIDS 7.5 User Guide, and considered expired. 7 For example, one
individual married an eligible sponsor in 2004 and registered in DEERS in 2006. All grace
periods expired, and no supporting documentation from the Social Security Administration
(SSA) existed in RAPIDS.

In discussions with DMDC and DHRA officials, we requested that DHRA provide a legal
opinion supporting their conclusion that the CFR does not require dependents to disclose their
SSN to RAPIDS personnel at the time of enrollment in DEERS. As of March 2012, DHRA had
not provided a legal opinion.

Additionally, we asked our Office of General Counsel to provide an opinion on this matter. The
DoD Inspector General Office of General Counsel concluded that DoD is required to obtain
beneficiary SSNs under 32 CFR § 220.9(d), which states:

       (d) Mandatory disclosure of Social Security account numbers…every covered beneficiary
       eligible for care in facilities of the Uniformed Services is, as a condition of eligibility, required
       to disclose to authorized personnel his or her Social Security account number.

As indicated in the March 1, 2011, System of Records notice, the TRICARE Management
Activity is the Designated Program Manager for Designated Provider Managed Care System
Records. This system identifies eligible beneficiaries enrolled in US Family Health Plan
managed care programs and records health care services provided and payments made on behalf
of eligible Uniformed Services health beneficiaries. In accordance with 32 CFR § 220.9(d), the
TRICARE Management Activity is responsible for collecting the SSNs of beneficiaries as a
condition of eligibility.

A Process to Identify Incorrect Mailing Addresses Needed
During the audit, we reported separately on the mailing address critical data field in a
memorandum to the Directors, DMDC and TRICARE Management Activity, that noted that the
organizations did not have a process to identify incorrect addresses within DEERS. (The
memorandum is reprinted in Appendix C.)

                                     The memorandum noted that DMDC and TRICARE
      DoD may incur additional       Management Activity repeatedly sent mail to incorrect
    postage costs up to $7 million   addresses, and DoD beneficiaries did not receive timely
         over the next 5 years.      notification about their health care benefits. The
                                     memorandum also noted that without a process to identify
and correct the addresses, DoD may incur additional postage costs up to $7 million over the next
5 years. DMDC and TRICARE Management Activity agreed with our memorandum and
recommendations.


7
  The RAPIDS 7.5 User Guide states an individual with a temporary ID has three 90-day grace periods after the
initial 1-year period to acquire an SSN or individual taxpayer identification number, or to receive a letter from SSA
or the Internal Revenue Service stating noneligibility to qualify. The temporary ID should not be used as a
permanent identifier.


                                                           12

Additional Procedures for Critical Data Field Documentation Needed
DMDC did not have procedures to verify that supporting documentation existed for the critical
data fields. Additional procedures, such as a periodic review of selected DEERS supporting
documentation, would help ensure that supporting documentation existed to verify the
9.4 million DEERS Uniformed Services beneficiary records.

Supporting documentation for the personal identifier, date of birth, gender, and name critical data
fields include, but are not limited to, many of the same documents used to verify identity. For
example, a driver’s license, U.S. passport, permanent resident card, or school photo ID meet the
DMDC requirements to verify identity. In addition, a Social Security card issued from the SSA
with the beneficiary’s SSN supports the personal identifier critical data field. The Social
Security card and a photo ID are adequate documentation to verify beneficiary identity.

Supporting documentation for the relationship critical data field includes, but is not limited to,
many of the same documents that RAPIDS personnel use to verify eligibility. These documents
include a marriage certificate, adoption decree, or birth certificate. Implementing additional
procedures to identify when supporting documentation exists for the critical data fields would
also help verify beneficiary identity and eligibility.

Review of Supporting Documentation Needed to Improve the
Accuracy of Beneficiary Critical Data Fields
DEERS data were not always accurate. Of the 9.4 million Uniformed Service beneficiaries,
DEERS contained discrepancies in the date of birth, gender, name, or relationship critical data
fields of 199,680 beneficiaries. For example, the date of birth listed on the birth certificate in
RAPIDS for a dependent child did not match the date of birth recorded in DEERS. As another
example, DEERS listed an active duty sponsor as a female, although the beneficiary’s Official
Military Personnel File confirmed that the sponsor was male. In other cases, the middle initials
and middle names listed on driver’s licenses in RAPIDS did not match the DEERS record.

In addition, we found spouses that remained eligible under prior sponsor associations even
though they were eligible for benefits under a new sponsor because of a new marriage.
Specifically, one discrepancy was a spouse eligible for benefits as both an unremarried widow
and as a remarried spouse. The eligibility rules for a remarried spouse indicate that the member
relationship code should have been terminated once the former spouse was remarried. The
RAPIDS 7.5 User Guide outlines the steps necessary to terminate previous relationships when a
beneficiary status changes. However, in the examples we identified, the beneficiaries remained
valid in DEERS under the prior affiliation. If not identified and corrected, duplicate member
relationship codes could extend eligibility to beneficiaries based on an invalid former
relationship.

The discrepancies occurred because DMDC did not have procedures to validate that DEERS
beneficiary data were accurate. Table 2 indicates that 2.2 percent of DEERS beneficiaries have
critical data field discrepancies, and it explains the importance of correcting these discrepancies.




                                                 13

                   Table 2. Summary of Critical Data Field Discrepancies
                                Beneficiaries
  Critical Data Field
                          Number**        Percent             Importance of Data
    Discrepancy*
                                                   Some dependent children benefits have
 Date of Birth               24,960           0.3
                                                   age limits
                                                   Delay approval of medical services,
 Gender                      24,960           0.3
                                                   payment could be delayed
                                                   Delay approval of medical services,
 Name                        49,920           0.5
                                                   payment could be delayed
                                                   An accurate relationship field
 Relationship                99,840           1.1
                                                   establishes the eligibility of a dependent.
   Total                    199,680           2.2
* We found no discrepancies in the personal identifier critical data field.

** The number of beneficiaries is based on statistical sampling projections. See Appendix B for details on the

statistical sampling methodology and results.


Additional Procedures to Validate Accuracy Needed
DMDC did not have procedures to validate that DEERS beneficiary data were accurate. A
review of selected DEERS supporting documentation would improve the accuracy of DEERS
data. A periodic review of DEERS records could include sampling methods to ensure adequate
coverage of the population, identifying the fields to review, how often to complete the reviews,
criteria for adequate supporting documentation, steps for remediation, and followup actions.
Implementing new procedures for reviewing DEERS supporting documentation would improve
the accuracy and quality of the beneficiary records.

Integrity of DoD Military ID Issuance Process and Need
for More Accountability
Change is needed before DoD can be certain that only eligible beneficiaries are enrolled in
DEERS and receive military IDs. RAPIDS personnel issued military IDs inappropriately,
without obtaining or maintaining documentation that supported DEERS records. Additionally,
the extent of the unsupported and inaccurate data adversely affected the integrity of the DoD
process for issuing military IDs. Without improvement, there is a risk that cardholders could
obtain unauthorized access to health care benefits, Government facilities, and other privileges
and that payments for medical services could be delayed. Action to improve DEERS data is
needed, as evidenced by the 2,495 instances of ineligible beneficiaries, identified by the
TRICARE Management Activity, who obtained unauthorized benefits.

Inappropriately Issued Identification Cards
RAPIDS personnel issued military IDs inappropriately, without obtaining or maintaining
adequate identity and eligibility documentation in RAPIDS. Specifically, RAPIDS personnel
issued military IDs to 41 of 78 sample beneficiaries without obtaining or maintaining the
required identity documentation. In May 2007, the RAPIDS 7.2 User Guide required the
scanning and retention of identity documents in RAPIDS. However, DMDC personnel


                                                        14

explained this requirement was not implemented until December 8, 2007. For purposes of this
audit, we used December 8, 2007, as the starting point for our audit tests to determine the
number of military IDs issued to our sample beneficiaries without identity or eligibility
documentation in RAPIDS. There were 78 beneficiaries from our sample of 375 to whom
RAPIDS personnel issued military IDs on or after December 8, 2007.

Of the 78 beneficiaries, RAPIDS personnel issued
70 IDs without adequate supporting documentation.        Of the 78 beneficiaries, RAPIDS
Of the 70 IDs, 37 were issued without either identity or  personnel issued 70 IDs without
eligibility documentation scanned into RAPIDS.                  adequate supporting
Another 4 IDs were issued with eligibility                        documentation.
documentation, but they lacked identity documentation
in RAPIDS, and 29 IDs had identity documentation but lacked eligibility documentation in
RAPIDS.

RAPIDS personnel issued military IDs to 66 of 78 beneficiaries without obtaining eligibility
documentation. For example, RAPIDS verifying officials issued a military ID to a stepchild of a
sponsor on November 23, 2009, without identity or eligibility documentation scanned into
RAPIDS. Additionally, the stepchild’s name did not match information at SSA when DMDC
compared the stepchild’s SSN to SSA records. RAPIDS personnel are not specifically required
to obtain and maintain eligibility documentation in RAPIDS for all beneficiaries, and in the
absence of consistent policy, a significant portion of eligibility supporting documentation
remained absent.

See Table 3 for a summary of military IDs issued without identity and eligibility documented.
The Table indicates that overall, supporting documentation for beneficiary identity was much
better than the supporting documentation for beneficiary eligibility. However, improvements are
needed in both areas.

                         Table 3. Military IDs Issued Without Identity
                                  and Eligibility Documented
                              Cards Issued Without       Cards Issued Without
             Beneficiary
                              Identity Documented        Eligibility Documented
             Spouse                     15                          42
             Child                      21                          20
             Stepchild                   4                           3
             Parents                     1                           1
             Ward                        0                           0
             Self                        0                           0
               Total                    41                          66




                                              15

DMDC Needed Improved Accountability Over DEERS Records and
Military ID Issuance
The extent of the unsupported and inaccurate DEERS data adversely affected the integrity of the
DoD process for issuing military IDs. The significant lack of DEERS supporting documentation
and the critical data field inaccuracies showed a need for increased accountability over the
issuance of military IDs and for maintaining the validity and accuracy of the DEERS records. In
addition, actions are needed to identify and prevent ineligible beneficiaries from obtaining
unauthorized benefits.

The TRICARE Management Activity and the Defense Criminal Investigative Service identified
and researched instances of ineligible beneficiaries obtaining unauthorized health care benefits.
As a result of those efforts, the TRICARE Management Activity identified 2,495 instances,
amounting to $11.2 million, in which ineligible personnel obtained access to DoD health care
benefits between FY 2007 and FY 2010. In one case, a former spouse of an Army member used
over $1.1 million in DoD health care benefits. The Defense Criminal Investigative Service
stated that it had 187 closed health care-related investigations from FY 2007 to FY 2010.

Without improvement, there is a risk that more cardholders could obtain unauthorized access to
health care benefits, Government facilities, and other privileges. To ensure that improvements in
the DEERS records occur, DMDC should designate an official or establish a working group that
is specifically responsible for data quality and for coordinating with the Military Services.
Coordination should include developing corrective action plans and increasing the accountability
that RAPIDS officials have over the supporting documentation for DEERS beneficiary records.

Discrepancies in DEERS Records Could Delay Medical Payments
Service member benefits are directly associated with the information contained in DEERS.
Before medical payments are made, DoD contractors are required to query DEERS beneficiary
data to determine whether DEERS information can validate the accuracy and validity of the
claim. If differences between the submitted medical claim and DEERS data exist, the claim
could be temporarily denied and the payment delayed until DoD completes research to correct
the discrepancy.

Conclusion
This report highlights opportunities for improvement in the requirements for obtaining and
maintaining documentation in RAPIDS related to the identity and eligibility of DEERS
beneficiaries, as well as the associated critical data fields. For improvement to occur, RAPIDS
verifying personnel must scan and store beneficiary identity documentation in RAPIDS, as
required by current policy. DoD must also revise current policy to require RAPIDS verifying
officials to scan and store beneficiary eligibility documentation in RAPIDS for all beneficiaries.
DHRA and DMDC officials provided us with draft policies that would require the scanning and
storing of the eligibility documents. However, at the time we issued this final report, the
officials had not formalized the policies.

In addition, DMDC needs to implement quality control procedures to review supporting
documentation that properly authenticates an individual. If current policies and procedures



                                                16

remain, RAPIDS personnel will continue to enroll individuals into DEERS and issue military
IDs to individuals without assurance or support that these individuals were authenticated and
entitled to the DoD benefits and privileges provided. There is a potential that individuals are
receiving benefits and privileges for which they are not entitled, and an even greater likelihood
that cardholders could obtain unauthorized access to Government facilities.

Overall, 5.7 million of the 9.4 million Uniformed Service beneficiaries in the DEERS database
have at least one undocumented critical data field. RAPIDS personnel were also bypassing
requirements for critical data field documentation by scanning one document numerous times or
just leaving the document placeholders blank. Additionally, over half of the beneficiaries from
our sample that obtained military IDs did so without RAPIDS personnel obtaining identity or
eligibility documentation. Because of these weaknesses, we have limited assurance that only
eligible beneficiaries were enrolled in DEERS and issued military IDs. DMDC needs to begin
actions to improve DEERS information, including steps to prevent ineligible beneficiaries from
gaining access to unauthorized benefits.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Director, Defense Human Resources Activity:

      a. Issue policy that requires Real-time Automated Personnel Identification System
personnel to scan and store documentation in the Defense Enrollment Eligibility Reporting
System that supports eligibility.

     b. Obtain a legal opinion regarding the requirement to obtain a Social Security
number before providing health care benefits to dependent beneficiaries.

DHRA and DMDC Consolidated Comments
The Director, DHRA, agreed with Recommendation 1.a and stated that DHRA addressed the
recommendation in the revision of DoD Instruction 1000.13, “Identification (ID) Cards for
Members of the Uniformed Services, Their Dependents, and Other Eligible Individuals.” This
revision formalizes the requirement to verify identity and eligibility documentation as part of
DEERS enrollment. The Under Secretary of Defense (Personnel and Readiness) signed the
updated DoD Instruction but Washington Headquarters Services is delaying its publication until
further policy is codified for ID Cards and Benefits in the DoD Manual. The expected
completion date for issuing these policies is end of 2012.

The Director, DHRA, agreed with Recommendation 1.b and stated that DHRA submitted a
request for a legal opinion to DHRA General Counsel for review and anticipated a response by
March 30, 2012.

Our Response
The Director’s comments were responsive, and no additional comments are required.




                                                17

2. We recommend that the Director, Defense Manpower Data Center:

       a. Develop a training plan for Real-time Automated Personnel Identification
System personnel to ensure identity documentation is scanned and stored in the Real-time
Automated Personnel Identification System in accordance with current policy
requirements. Additionally, develop a plan to train these personnel on the new eligibility
policy and implement a process to measure the effectiveness of policy changes.

      b. Designate an official or a task force responsible for implementing quality control
procedures that include:

              (1) Testing the Defense Enrollment Eligibility Reporting System data to
identify when supporting documentation exists and to validate the accuracy of Defense
Enrollment Eligibility Reporting System beneficiary data to supporting documentation.

              (2) Developing a process to request and acquire supporting documentation
from beneficiaries and to measure the improvement of data quality in the Defense
Enrollment Eligibility Reporting System. This includes coordinating actions with the
Military Services and Real-time Automated Personnel Identification System personnel to
update inaccurate Defense Enrollment Eligibility Reporting System data.

               (3) Coordinating with the appropriate Military Service points of contact to
review the performance of Real-time Automated Personnel Identification System personnel
who do not capture the appropriate documentation, and based on the results consider
corrective actions, such as taking personnel actions or suspending Real-time Automated
Personnel Identification System access privileges, as appropriate.

DHRA and DMDC Consolidated Comments
The Director, DHRA, stated that DMDC agreed with Recommendation 2.a and stated that
DMDC has a training program, which includes User Guides, Certification Training, Newsletters,
Tip Sheets and Messages of the Day. DMDC monitors and updates these materials to reflect
new eligibility policies.

Further, the Director stated that DMDC uses this training program to supplement and enhance
training for the RAPIDS verifying officials. The training covers the requirements to review,
capture, and store relationship eligibility documentation for all beneficiary record additions or
eligibility changes. Thus, the RAPIDS verifying officials know their responsibilities and results
of wrongful actions, but training alone will not deter a verifying official who intends to commit
fraud.

The DMDC Enterprise Training Program measures the effectiveness of RAPIDS training by
requiring RAPIDS operators to achieve a 100-percent passing score on a certification training
test. She said that DMDC captures metrics through the DMDC Help Desk support team
concerning issues that are unclear to verifying officials and uses that information to revise the
training and update the User Manuals. Finally, DMDC reviews and analyzes the Help Desk
metrics regularly to identify areas that need improvement.


                                                 18

The Director, DHRA, stated that DMDC agreed with Recommendation 2.b.1 and stated that the
Director of Identity Services and the Director, DEERS, are the designated officials responsible
for the quality control procedures related to recommendations 2b(1)-2b(3). She stated that
DMDC has developed an automated auditing capability that will include a monthly pull of
random records to identify incorrect or potentially fraudulent actions by the RAPIDS verifying
officials. DMDC was testing the automated auditing capability and planned to include auditing
for the scan of blank documents and auditing for a scan or rescan of the same document used
multiple times.

The random audits and the metrics captured by the DMDC Help Desk would determine when
more in depth audits were required. Upon successful completion of the auditing capability
testing, DMDC planned to implement the procedures in FY 2012.

The Director, DHRA, stated that DMDC agreed with Recommendation 2.b.2 and stated that
DMDC began obtaining supporting documentation from beneficiaries in January 2009, when the
scanning process was implemented at all RAPIDS sites. All non-sponsor beneficiaries would
need to go to RAPIDS to be issued new ID cards and to have the appropriate supporting
documentation captured by January 2014.

Further, the Director stated DMDC was adding a feature to the software that would allow the
addition of documentation outside the ID card issuance process. DHRA was coordinating an
additional policy change that would require indefinite ID cards to expire at age 65. DMDC
would be able to capture the proper supporting documentation during the reissuance process for
this population.

The Director, DHRA, stated that DMDC agreed with Recommendation 2.b.3 and stated that
DMDC had worked to proactively identify fraud and abuse and had capabilities in place to
suspend RAPIDs access privileges for those who commit abuse. DMDC was providing a
monthly termination of eligibility report to the TRICARE Management Activity’s Office of
Program Integrity for terminations older than 30 days.

The Office of Program Integrity would use the information provided by DMDC to determine
whether the beneficiary in question was indebted to the Government for ineligible medical
services received. The Office of Program Integrity had 51 cases referred for investigation.

In addition, the Director stated that although the Office of Program Integrity did not have the
capability to provide the data records from the recoupment cases back to DMDC, DMDC was
working with Program Integrity to obtain that data. Once DMDC received those records, DMDC
would provide the results to the appropriate Service with the name of the verifying official and
the site where the update occurred. Included in this reporting would be late verifying official
terminations, and late reporting from the Service personnel files, which would result in an
investigation and possible recoupment. This functionality was scheduled for implementation in
FY 2013.




                                               19

Finally, the Director stated that once the auditing capability is implemented, DMDC will be able
to develop and report trends of recurring abuse. DMDC would then be able to take corrective
action with the Military Services to clarify requirements, expand training, and even remove
verifying official access or decertify a site.

Our Response
The Director’s comments were responsive, and no additional comments are required.




                                               20

Appendix A. Scope and Methodology
We conducted this performance audit from February 2010 through March 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit scope encompasses DEERS Uniformed Service beneficiaries as of
September 30, 2009; to be specific, all living active duty, Guard, Reserve, and retired
sponsors and their dependents eligible for health care benefits. We limited our scope to
beneficiaries affiliated with the Army, Navy, Air Force, and Marine Corps.

Our review of sponsors and dependents varied because RAPIDS updates and adds
sponsor family members in DEERS, while each Military Entrance Processing Command
sends DMDC daily, weekly, and monthly data files to add Service member records and
their respective status into DEERS. For sponsors, we reviewed Military Service
personnel records to verify critical data fields located on official DoD forms and to
identify any contradictions that could potentially impact a sponsor’s eligibility. Because
each Military Service conducts background investigations on the sponsor as outlined in
the Under Secretary of Defense for Personnel and Readiness issued DoD Directive-Type
Memorandum 08-003, “Next Generation Common Access Card (CAC) Implementation
Guidance,” December 1, 2008 (Incorporating Change 1, August 10, 2010), we
determined that it was unlikely that sponsors were not eligible. Sponsors needed only to
prove identity, while dependents and family members needed to prove identity as well as
their relationship to a sponsor in order to be eligible for DoD benefits and privileges.

For dependents and family members, we compared demographic information from the
DEERS extract to actual hardcopy documentation stored in RAPIDS to assess the
completeness and accuracy of beneficiary data. The review included verification of
scanned documentation to support identity and relationship to the sponsor. We used
assistance from DMDC officials at DMDC-West in Monterey, California. We reviewed
critical data fields that were to include documentation verifying identity. One form of
acceptable identification had to be a photo ID issued by a State or Federal agency. We
also verified the relationship status between the sponsor and family members by
reviewing marriage certificates, dependency determinations, adoption decrees, and birth
certificates. From applicable guidance, we obtained a list of acceptable documentation
for verifying identity and relationship status.

Based on the procedures used by the DoD Office of the Actuary, we selected six critical
data fields for each sample item from a DEERS database extract as of September 30,
2009. We compared the data in DEERS to the data in the personnel file for each sponsor
and to the data archived in RAPIDS for spouses and dependents. We tested
beneficiaries’ personal identifier, date of birth, gender, name, relationship to sponsor, and



                                             21

mailing address. For mailing address, we reviewed returned mail statistics and for the
remaining critical data fields, we reviewed personnel files and RAPIDS documentation
related to the 375 beneficiaries in our sample.

In addition to the DoD Directive-Type Memorandum, we reviewed the CFR; other DoD
publications; published guidance from the Military Services; TRICARE systems,
operations, and policy manuals; the DEERS data dictionary; and RAPIDS standard
operating procedures. Publication dates of these documents ranged from December 1997
through August 2010. We also interviewed DMDC personnel on numerous occasions.

Use of Computer-Processed Data
We relied on computer-processed data from DEERS to identify a population of
beneficiaries and develop a statistical sample as of September 30, 2009. To assess the
reliability of DEERS data, we reviewed existing supporting documentation related to
DEERS data fields, analyzed the data to identify any obvious completeness or accuracy
discrepancies, and interviewed knowledgeable agency officials about the data. The
DEERS data were sufficiently reliable to identify a sample population of beneficiaries for
statistical sampling.

We also relied on computer-processed data contained in RAPIDS to support DEERS
critical data fields and to verify identity and eligibility. This information included
scanned copies of documents, such as driver’s license, military ID, birth certificate, and
marriage certificate. To assess the reliability of RAPIDS data, we worked with officials
from DMDC familiar with the system to gain an understanding of RAPIDS capabilities;
noted some basic access controls over the system; and observed other system controls,
such as identifying beneficiaries no longer eligible for benefits. Based on our
assessment, we noted minor discrepancies between the data contained in RAPIDS and
DEERS. Although minor discrepancies existed and RAPIDS did not always contain the
supporting documentation required by DMDC policy and to support beneficiary
eligibility, the scanned data that were in RAPIDS were sufficiently reliable for the
purposes of our audit.

We also relied on computer-processed data in various military personnel systems to
verify the completeness and accuracy of the DEERS sponsor data. This information
included birth certificates, enlistment forms, and retirement forms. To assess the
reliability of these systems, we worked with officials from the personnel offices that were
familiar with these systems to obtain access and gain an understanding of the system
capabilities and noted some basic access controls over the systems. Based on our
assessment, we noted minor discrepancies between the data in the military personnel
systems and DEERS. Despite minor discrepancies, we determined that the data were
sufficiently reliable to test the sample of DEERS beneficiary sponsors and associated
critical data fields related to these sponsors.




                                            22

Use of Technical Assistance
We relied on the DoD Office of Inspector General Quantitative Methods Division to
develop a statistical sample of the DEERS Uniformed Services beneficiaries and to
project the results of our tests. See Appendix B for details on the statistical sampling
methodology and analysis.

Prior Coverage on Beneficiary Data
No prior coverage has been conducted on the subject during the past 5 years.




                                             23

Appendix B. Use of Technical Assistance
Population
The DoD Office of Inspector General Quantitative Methods Division provided technical
assistance during our audit. Quantitative Methods Division analysts developed the
statistical sample of DEERS Uniformed Services beneficiaries from demographic data as
of September 30, 2009, as provided by DMDC. DMDC provided a DEERS universe,
which encompassed all beneficiaries (Service members, retirees, and their dependents).
There were 9,628,410 records in the original file. Because the project focused on DoD
beneficiaries, we excluded records for beneficiaries who were not reported as affiliated
with the Army, Navy, Air Force, or Marine Corps. As a result, Quantitative Methods
Division analysts identified a population of 9,388,885 beneficiaries comprised of
4,492,784 active duty, Guard, Reserve, or retired sponsors and their spouses and
dependents.

Sample Plan
The sampling approach used a simple random sample design, grouping beneficiaries by
sponsor SSN. As of September 30, 2009, each of the 9,388,885 unique beneficiaries was
either a Service member, known as a sponsor, or had an association with a sponsor. A
sponsor’s SSN was part of each beneficiary’s DEERS record. Therefore each spouse or
dependent could be identified by the sponsor’s SSN.

Quantitative Methods Division analysts grouped the 9,388,885 unique beneficiaries by
the 4,492,784 unique sponsors’ SSNs and drew a simple random sample, without
replacement, of 180 sponsors’ SSNs. Among the 180 sponsors’ SSNs selected, 152 were
for active sponsors and 28 were for inactive ones (deceased or divorced sponsors with
active dependent beneficiaries). The selected sponsors and associated spouses and
dependents totaled 375 individuals for review. The overall audit sample of
375 beneficiaries consisted of 152 military beneficiaries (sponsors) and their 223 spouse
or dependent beneficiaries.

Results of Analysis
Based on the results provided for each sample record, Quantitative Methods Division
analysts calculated the statistical projections at the 95-percent confidence level. See
Table B.1 and Table B.2 for a summary of our results.




                                            24

  Table B.1. Estimated Number of Beneficiaries With Undocumented Critical Data

                           Fields, Identity, and Eligibility

                                                    Lower       Point     Upper
                                                    Bound     Estimate    Bound
                    Measure
                                                   (Percent    (Percent  (Percent
                                                    Total)      Total)    Total)
Beneficiary With Undocumented Critical
Data Field
                                                  4,925,621   5,740,780 6,555,938
One or more
                                                    (52.5)      (61.1)    (69.8)
                                                  3,603,481   4,367,984 5,132,487
Personal Identifier
                                                    (38.4)      (46.5)    (54.7)
                                                  3,345,931   4,043,506 4,741,080
Date of Birth
                                                    (35.6)      (43.1)    (50.5)
                                                  3,126,920   3,818,866 4,510,812
Gender
                                                    (33.3)      (40.7)    (48.0)
                                                  3,017,311   3,694,067 4,370,823
Name
                                                    (32.1)      (39.4)    (46.6)
                                                  4,267,314   5,041,902 5,816,490
Relationship to sponsor
                                                    (45.5)      (53.7)    (62.0)
Beneficiary Population With Undocumented
                                                  1,551,949   2,146,552 2,741,156
Identity
                                                    (16.5)      (22.9)    (29.2)
                                                  2,158,984   2,845,430 3,531,876
Eligibility
                                                    (23.0)      (30.3)    (37.6)

In addition to the undocumented critical data fields, we identified discrepancies between
the data in DEERS and the supporting documentation obtained. See Table B.2 for a
summary of the projections for the maximum number of discrepancies in DEERS and the
supporting documentation in DEERS.




                                           25

           Table B.2. Estimated Beneficiaries With Incorrect Critical Data
                                or Known Ineligibles
                                         Lower
                                                          Point        Upper Bound
                                         Bound
              Measure                                   Estimate         (Percent
                                        (Percent
                                                     (Percent Total)       Total)
                                         Total)
Beneficiary With Incorrect
                                           1*            24,960            73,880
Date of Birth
                                           (0)            (0.3)             (0.8)
                                           1*            24,960            73,880
Gender
                                           (0)            (0.3)             (0.8)
                                           2*            49,920           118,910
Name
                                           (0)            (0.5)             (1.3)
                                          2,822          99,840           196,857
Relationship to Sponsor
                                           (0)            (1.1)             (2.1)
                                         64,044        199,679**          335,315
At least one Incorrect Field
                                          (0.7)           (2.1)             (3.6)
Beneficiaries Identified as                2*            49,920           118,910
Ineligible                                 (0)            (0.5)             (1.3)
* Since the statistically calculated lower bounds are negative, we replaced them with the number of errors
found in the sample
** Due to rounding, the point estimate of beneficiaries with at least one incorrect critical data field equals
one less than the sum of errors in the four critical data fields shown




                                                     26

Appendix C. DoD Office of Inspector General
Memorandum on the Accuracy of DEERS
Beneficiary Address Information and DoD
Comments




                    27

28

29

30

31

Assistant Secretary of Defense for Health Affairs
Comments




                    Click to add JPEG file




                                   32
Defense Manpower Data Center Comments





                  Click to add JPEG file




                                 33
Click to add JPEG file




               34
Defense Human Resources Activity and Defense 

Manpower Data Center Consolidated Comments





                   Click to add JPEG file




                                  35
Click to add JPEG file




               36
Click to add JPEG file




               37
Click to add JPEG file




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
Click to add JPEG file




               41
